September 23, 2010

PRANAB M. SHAH
VICE PRESIDENT AND MANAGING DIRECTOR, GLOBAL BUSINESS

J. RON POLAND
MANAGER, STATISTICAL PROGRAMS

STEPHEN M. DEARING
MANAGER, INTELLIGENT MAIL PLANNING AND STANDARDS

SUBJECT: Audit Report – Controls Over System for International Revenue and
         Volume, Outbound and International Origin-Destination Information System
         (Report Number CRR-AR-10-006)

This report presents the results of our audit of the System for International Revenue and
Volume, Outbound and International Origin-Destination Information System (SIRVO-
IODIS) (Project Number 10RG009CRR000). Our objectives were to assess controls
over SIRVO-IODIS and the reliability of SIRVO-IODIS test results and the effectiveness
of revenue protection programs for outbound First-Class Mail® International and Priority
Mail® International. This self-initiated audit addresses financial risk. See Appendix A for
additional information about this audit.

SIRVO-IODIS is a statistical sampling system the Postal Service uses to develop
revenue, pieces, and weight (RPW) estimates for outbound First-Class Mail
International and Priority Mail International and to conduct terminal dues settlements.1
The system collects mail characteristic information, volume flows, and transit time
information on the major categories of international mail. SIRVO-IODIS samples
outbound international mail where census data is not available, such as collection box,
carrier pickup, contract postal unit, and retail window entry points. Management uses
this data in planning and developing budgets and mail volume forecasts, designing and
developing mail processing facilities and equipment requirements; identifying and
correcting service problems; and supporting revenue protection measures.

In fiscal year (FY) 2009, management conducted 7,888 SIRVO-IODIS tests at the
                                                           International Service
Centers (ISCs); and the            International/Network Distribution Center. During
each SIRVO-IODIS test, multiple mailpieces are taken from mail receptacles and tested.

1
    The charge levied by the destination country to cover the costs incurred for delivering incoming international mail.
Controls Over System for International Revenue and                    CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System

Data collection technicians (DCTs) use electronic scales in conjunction with
Computerized On-Site Data Entry System software on laptop computers to record
information about mailpieces (including postage displayed on the mailpiece). Based on
mailpiece weight, the software calculates whether the postage is shortpaid.
Approximately 2.1 million mailpieces were examined during SIRVO-IODIS testing in
FY 2009.

Conclusion

Data collection and validation controls over SIRVO-IODIS are adequate and test results
used for RPW estimates are reliable. There are a number of automated and manual
controls that assess the reliability of SIRVO-IODIS tests. However, management
oversight controls with regard to revenue protection programs for outbound First-Class
Mail International and Priority Mail International are not adequate.

Data Collection and Validation Controls

We found data collection and validation controls to be adequate and test results used
for RPW estimates to be reliable. Some automated and manual controls that enhance
the reliability of SIRVO-IODIS tests
include:

       Experienced DCTs perform on-site SIRVO-IODIS tests at the five ISCs and the
                   International/Network Distribution Center.

       The SIRVO-IODIS testing schedule is largely automated – the test schedule is
        integrated with the outbound international mail dispatch system and DCTs are
        alerted when the dispatch system processes a test receptacle. In addition,
        automated data validation and edit routines are incorporated into the
        Computerized On-Site Data Entry System software.

       An on-site statistical program manager reviews each completed SIRVO-IODIS
        test before it is transmitted to the centralized mainframe computer.

       There are data edit and validation routines performed during the SIRVO-IODIS
        system processing and the final testing results are reviewed at headquarters.

Management Oversight Controls

Management oversight controls related to revenue protection programs for outbound
First-Class Mail International and Priority Mail International need strengthening.
Specifically, Statistical Programs does not provide SIRVO-IODIS test results to
international operations that detail shortpaid postage detected at each ISC. In addition,
two of the five ISCs were not processing shortpaid mailpieces in accordance with




                                                   2
Controls Over System for International Revenue and                                               CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System

international mail policies.2 At our request, the Statistical Programs group performed a
detailed analysis of FY 2009 shortpaid postage. They estimated there was $26.9 million
in revenue at risk3 from shortpaid postage on outbound First-Class Mail International
and Priority Mail International mailpieces during FY 2009. Looking forward, this equates
to approximately $53.8 million in revenue at risk over a 2-year period.

Revenue Protection Programs

The five ISCs did not use consistent procedures to address mailpieces with shortpaid
postage. The                        , and            ISCs have procedures in place to
return shortpaid mail to other internal or external units for collection of shortpaid postage
in accordance with international mail policies. However, the              and
ISCs have no procedures to process shortpaid mailpieces and they dispatch those
mailpieces without taking action to collect shortpaid postage.

SIRVO-IODIS testing identified shortpaid postage on 7 percent of First-Class Mail
International4 and 8 percent of Priority Mail International5 mailpieces tested in 2009.
However, Statistical Programs does not provide SIRVO-IODIS test results to
international operations that detail shortpaid postage detected at each ISC. We believe
those reports would be a useful tool to monitor shortpaid international mail that ISCs are
processing.

Those estimates of shortpaid postage are likely understated because SIRVO-IODIS
testing does not identify shortpaid postage on mailpieces with no visible postage
amount. Mailpieces without visible postage include mailpieces with Permit Imprint
postage and stealth Information-based Indicia (IBI)6 postage. Mailpieces with these
types of postage represented about 26 percent of the mailpieces examined during
SIRVO-IODIS testing.

The Postal Service is implementing new revenue protection procedures7 for IBI postage
generated from PC Postage® products.8 The Postal Service will use mail processing

2
  Handbook T-5, Chapter 4, Irregularities - Outbound, contains business rules for processing mail with postage
irregularities. This includes 1) forwarding the mail to its destination as paid in full, 2) forwarding the mail to its
destination and billing the mailer for the postage shortage, 3) returning the mail to the sender, or 4) forwarding mail
with no return address to a mail recovery center.
3
  Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).
4
  According to Handbook T-5, letter class mail less than one pound and less than 21 cents shortpaid is sent to its final
destination as paid in full. The percentage is based on total First Class Mail International shortpaid pieces less these
pieces being sent forward.
5
  According to Handbook T-5, letter and parcel mail more than one pound and less than one dollar shortpaid is sent
to its final destination as paid in full. The percentage is based on total Priority Mail International shortpaid pieces less
these pieces being sent forward.
6
  Digitally generated indicia that include a two-dimensional barcode.
7
  Federal Register, Number 186, Draft, Unpaid and Shortpaid Information-Based Indicia Postage Meters and PC
Postage Products.
8
  PC Postage products are software-based postage offered by commercial providers approved by the Postal Service.




                                                             3
Controls Over System for International Revenue and                    CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System

equipment and ancillary information systems to detect and capture data for suspect
mailpieces with shortpaid postage. The Postal Service will analyze this data to verify
whether sufficient postage was paid and electronically notify both the mailer and the PC
Postage provider of any postage deficiency. In cases where deficient postage is
confirmed, the Postal Service will take corrective measures to recover the appropriate
postage. Corrective actions can include collection of the shortpaid postage, revocation
of the mailer’s account privileges, and/or civil and criminal fines and penalties pursuant
to existing federal law.

Management is primarily implementing the new revenue protection procedures at the
larger post office delivery units and the procedures will only apply to domestic mail
delivery. The five ISCs are the delivery units for outbound international mail and
extending the enhanced revenue protection procedures to outbound international mail
at the ISCs would strengthen the Postal Service’s revenue protection programs. As a
mitigating control, the Postal Service can use SIRVO-IODIS test results as an important
tool to monitor shortpaid postage on First-Class Mail International and Priority Mail
International products at the ISCs. The Postal Service estimates there was $26.9 million
in revenue at risk from shortpaid postage on outbound First-Class Mail International and
Priority Mail International mailpieces during FY 2009. Looking forward, this equates to
approximately $53.8 million in revenue at risk over a 2-year period. See Appendix B for
our detailed analysis of this topic.

We recommend the manager, Statistical Programs, direct the manager, Revenue and
Volume Reporting, to:

1. Develop a quarterly shortpaid postage report for outbound First-Class Mail and
   Priority Mail International and provide this report to Global Business Systems and
   Intelligent Mail Planning and Standards.

We recommend the vice president and managing director, Global Business, direct the
executive director, International Operations, to:

2. Implement procedures to use System for International Revenue and Volume,
    Outbound and International Origin-Destination Information System test results to
    monitor shortpaid postage at each international service center.

3. Establish revenue protection procedures at the            and
   International Service Centers.

We recommend the manager, Intelligent Mail Planning and Standards, direct the
program manager, Intelligent Mail Planning and Standards, to:

4. Assess the viability of extending enhanced revenue protection programs to outbound
   international mail, similar to the new procedures for domestic mail.




                                                   4
Controls Over System for International Revenue and                  CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System


Management’s Comments

Management agreed with our findings and recommendations 1, 2, and 4 and did not
comment on our non-monetary impact. Management stated that they will develop a
shortpaid postage report and implement procedures at the ISCs to use the shortpaid
data. Additionally, they will assess the viability of extending enhanced revenue
protection programs to outbound international mail.

Management partially agreed with recommendation 3. Management stated that they are
unable to fully establish revenue protection procedures at the       and
            ISCs because they are not acceptance units. However, management will
update shortpaid mail policies and implement procedures to handle shortpaid mail
identified during SIRVO testing at these ISCs. See Appendix D for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations. We deem the corrective actions related
to recommendation 3 to be responsive to the recommendation as it is an acceptable
revenue protection procedure. The corrective actions should correct the issues
identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, or me
at 703-248-2100.
    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Joseph Corbett
     Michael J. Nappi
     Giselle Valera
     Bradley V. Pafford
     Corporate Audit and Response Management



                                                   5
Controls Over System for International Revenue and                                        CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

SIRVO-IODIS is a statistical sampling system that provides RPW estimates for
outbound First-Class Mail International and Priority Mail International. The Postal
Service uses these estimates in its annual Cost and Revenue Analysis report and also
to support terminal dues settlements with foreign postal administrations. The Statistical
Programs group at headquarters develops the SIRVO-IODIS survey design and data
collection methods and reviews the final SIRVO-IODIS test results.

In FY 2009, DCTs at the five ISCs and the               International/Network
Distribution Center conducted 7,888 SIRVO-IODIS tests that examined over 2.1 million
international mailpieces. Over 90 percent of the mailpieces were First-Class Mail
International as shown in Table 1.

                     Table 1. Mail Examined During SIRVO-IODIS Testing

               Mail Subclass                                        Mailpieces           Percent
               First-Class Mail International                        1,914,105              90.4
               Priority Mail International                              48,484               2.3
               International Surface/Airlift Mail                       21,087               1.0
               Other9 133,309                                                                6.3
                                 Totals 2,116,985                                          100.0

The SIRVO-IODIS survey design is integrated with an algorithm within the Global
Business Systems (GBS) Dispatch system to automatically select mail receptacles for
testing. DCTs use the Computerized On-Site Data Entry System software, in
conjunction with electronic scanners and scales, to conduct the tests, which are
uploaded to an onsite Computerized On-Site Data Entry System Web-Based Unit.
Managers in Statistical Programs (MSP) review the test results prior to transmission to
the Postal Service’s mainframe computer in                 . Figure 1 shows the
Computerized On-Site Data Entry System laptop, scale, and scanner used in
SIRVOIODIS testing.




9
 Other includes Return to Sender mail; Foreign Return Receipt mail; Open Transit mail; International Business Reply
mail; and domestic mailpieces.




                                                         6
Controls Over System for International Revenue and                                             CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System



       Figure 1. Computerized On-Site Data Entry System Laptop, Scale, and Scanner




The Postal Service’s international mail operations guidelines direct ISCs to detect
shortpaid and unpaid items and describe various handling scenarios for mail with and
without a return address. The handling scenarios described below depend on the mail
type and weight, the amount of the shortpaid postage, and whether the mail is air or
surface transportation:

          The Postal Service returns Shortpaid First-Class Mail International and Priority
           Mail International to sender, holds it for postage collection, dispatches it as
           “Postage and Fees Paid,” dispatches with a T-stamp,10 or sends it to a mail
           recovery unit.

          In general, the Postal Service returns all unpaid First-Class Mail and Priority Mail
           International with a return address to the sender.

          The Postal Service either forwards unpaid mail without a return address as
           “Postage Due” or sends it to a mail recovery center.

Figures 2 and 3 are examples of DCT notations of shortpaid postage on sampled items
for First-Class Mail International and Priority Mail International, respectively.




10
     A T-stamp allows the destination country to determine and collect the shortpaid amount.




                                                            7
Controls Over System for International Revenue and                      CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System



        Figure 2. Shortpaid Postage on First-Class Mail International




        Figure 3. Shortpaid Postage on Priority Mail International




To address revenue losses from shortpaid postage, the Postal Service is implementing
the Passive Adaptive Scanning System (PASS) program at high-volume delivery units.
A PASS unit is an overhead passive scanning system that captures mailpiece attributes
from barcode scans, including postage. This data is compared to other transactional
data to identify suspect mailpieces with postage variances. Under the PASS program —
a coordinated effort between Intelligent Mail and Address Quality and Engineering —
2,390 PASS units will be installed at 2,385 delivery units. However, this effort is focused
on domestic mail and currently does not address outbound international mail at the
ISCs.



                                                   8
Controls Over System for International Revenue and                  CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System



OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess controls over SIRVO-IODIS and the reliability of SIRVO-
IODIS test results and assess the effectiveness of revenue protection programs for
outbound First-Class Mail International and Priority Mail International.

We reviewed policies and procedures applicable to SIRVO-IODIS testing and shortpaid
and unpaid international mail. Additionally, we interviewed management at
headquarters and field locations and DCTs who conduct SIRVO-IODIS testing.

To determine whether SIRVO-IODIS testing was conducted properly, we observed the
testing at the ISCs and the         International/Network Distribution Center.

Additionally, we examined management’s review of SIRVO-IODIS at field locations and
headquarters.

To assess the completeness of SIRVO-IODIS sampling, we identified countries with
large outbound mail volumes (weight and mailpieces) and verified that the SIRVO-
IODIS sampling included outbound mail to those countries.

To assess the effectiveness of revenue protection programs, we analyzed FY 2009 and
Q1, FY 2010 SIRVO-IODIS test results to determine the amount of shortpaid postage
these tests detected at each location. Additionally, we interviewed management at the
ISCs and the              International/Network Distribution Center.

We conducted this performance audit from January through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 3, 2010, and
included their comments where appropriate.




                                                   9
    Controls Over System for International Revenue and                                CRR-AR-10-006
     Volume, Outbound and International Origin-Destination
     Information System


    PRIOR AUDIT COVERAGE

                        Report          Final
   Report Title        Number        Report Date       Monetary Impact                   Report Results
Shortpaid            MS-AR-09-005 3/17/200    9          $99.0 million       Controls were not adequate to
Information-                                                                 ensure the Postal Service detected
Based Indicia                                                                and collected shortpaid and unpaid
Stealth Postage                                                              postage on IBI stealth First-Class,
                                                                             Priority, and Parcel Post mail.
                                                                             Management agreed with
                                                                             recommendations 1, through 4; and
                                                                             disagreed with recommendation 5,
                                                                             stating there are already procedures
                                                                             in place at processing plants to scan
                                                                             and identify duplicate and
                                                                             counterfeit IBI stealth postage.
Statistical Tests    FF-AR-09-024       11/24/2008                $0         Tests of the ODIS-RPW, IOCS,
for Fiscal Year                                                              TRACS, and SIRVO-IODIS were
2008 - Cost and                                                              generally conducted in accordance
Revenue Analysis                                                             with established policies and
                                                                             procedures. However, errors were
                                                                             identified in 38 of 201 tests
                                                                             observed in 12 of the 14 districts.
                                                                             Management agreed with the
                                                                             recommendations.
Shortpaid            MS-AR-09-002 10/14/20      08           $47.7 million   Controls were not adequate to
Postage –                                                                    ensure the Postal Service detected
Information-                                                                 and collected shortpaid and unpaid
Based Indicia                                                                postage on IBI Parcel Post mail.
Parcel Post Mail                                                             Management agreed with
                                                                             recommendation 2; partially agreed
                                                                             with recommendations 1, 3 and 4;
                                                                             and disagreed with recommendation
                                                                             5.
Shortpaid            MS-AR-09-001 10/10/20      08           $96.6 million   Controls were not adequate to
Postage –                                                                    ensure the Postal Service detected
Information-                                                                 and collected shortpaid and unpaid
Based Indicia                                                                postage on IBI Priority Mail.
Priority Mail                                                                Management agreed with
                                                                             recommendation 2; partially agreed
                                                                             with recommendations 1, 3 and 4;
                                                                             and disagreed with recommendation
                                                                             5.




                                                       10
Controls Over System for International Revenue and                                        CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System


                                APPENDIX B: DETAILED ANALYSIS

Revenue protection programs are not adequate for outbound First-Class Mail
International and Priority Mail International. The ISCs did not use consistent procedures
to address mailpieces with shortpaid postage. Further, Statistical Programs does not
provide SIRVO-IODIS test results that detail shortpaid postage detected at each ISC to
international operations.

Revenue Protection Program

Each location uses a different procedure to process shortpaid mailpieces. Three
locations had some revenue control measures in place for shortpaid international mail
and two did not. Specifically,

        At the            ISC, shortpaid mailpieces encountered during mail
         processing or SIRVO-IODIS testing are taken to a registry unit for processing.

        At the        ISC, clerks in the Linear Sorter or Small Parcels and Rolls area that
         identify shortpaid mail place a yellow sticker and stamp “Postage Due” on the
         mailpieces. Clerks put the mailpieces into a container and dispatch it to a
         domestic mail processing plant for processing. Shortpaid mailpieces encountered
         during SIRVO-IODIS testing are also placed in a container and dispatched to the
         domestic mail processing plant.

        At the          ISC, clerks take shortpaid mailpieces encountered during mail
         processing or SIRVO-IODIS testing to a domestic and foreign letter case area.
         Employees on limited-duty status process the mail according to international mail
         policies.

     The           and                ISCs do not have revenue protection procedures in
        place; therefore, shortpaid mailpieces identified during mail processing or
        SIRVO-IODIS testing are placed back into the mailstream without taking any
        collection action.

Shortpaid Postage

FY 2009 SIRVO-IODIS testing11 identified shortpaid postage on 165,056 First-Class
Mail International and 10,560 Priority Mail International mailpieces. The total shortpaid
postage on these SIRVO-IODIS sampled mailpieces was $139,732. There was no
shortpaid postage identified on International Surface/Airlift and “other” categories of
mail. These estimates are conservative in that mailpieces with stealth IBI and Permit

11
   FY 2009 SIRVO-IODIS testing also identified overpaid postage on 200,584 First-Class Mail International and 1,701
Priority Mail International mailpieces. The total overpaid postage on the SIRVO-IODIS mailpieces was $106,323. This
mail is returned to the mailstream for eventual dispatch.




                                                        11
Controls Over System for International Revenue and                         CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System

Imprint postage, which represented 26 percent of the SIRVO-IODIS mailpieces tested,
have no visible postage; therefore, SIRVO-IODIS testing cannot detect shortpaid
postage on stealth IBI and Permit Imprint mail. Table 2 displays shortpaid postage at
each location.

                     Table 2. Shortpaid Pieces and Postage by Location

                                                   Shortpaid International Mail
                                           Number of Mailpieces     Percentage
                            Tested       First-                       Shortpaid Postage
       Location            Mailpieces    Class  Priority    Total   At Location Shortage
                     ISC        8,224       139      788       927        11.3%   $3,514
           ISC               618,482     52,244    4,043    56,287         9.1%   49,328
                 ISC         179,654     21,577      572    22,149        12.3%   20,537
         ISC                 379,243     24,737      869    25,606         6.8%   14,027
               ISC           916,195     66,279      188    66,467         7.3%   38,642

  International/
  Network
  Distribution Center          15,188         80         4,100     4,180   27.5%      13,684
         Totals 2,116,986                165,056        10,560   175,616            $139,732

Based on Postal Service estimates, there was $26.9 million in revenue at risk from
shortpaid postage on outbound First-Class Mail International, Priority Mail International
mailpieces in FY 2009. This equates to approximately $53.8 million in revenue at risk
over a 2-year period. See Appendix C for our detailed analysis of this topic.




                                                   12
Controls Over System for International Revenue and                    CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System


                          APPENDIX C: NON-MONETARY IMPACT

Based on SIRVO-IODIS testing data, Statistical Programs estimated the Postal Service
incurred $26.9 million in revenue at risk from shortpaid postage on outbound First-Class
Mail International and Priority Mail International. To develop their estimate, the Postal
Service analyzed, by destination country, outbound international mail that was eligible
for SIRVO testing. They also factored in the 5 percent discount provided to Priority Mail
International mailers using Click-N-Ship®, PC Postage or an approved IBI metering
system.

To verify the Postal Service’s estimate, we reviewed their methodology and performed a
similar analysis using FY 2009 and Q1, FY 2010 First Class Mail International and
Priority Mail International revenue and pieces. Our analysis identified approximately
$35.1 million in revenue at risk from shortpaid postage on First-Class Mail International
and Priority Mail International. However, we believe the lower Postal Service estimate is
more accurate because it factors in destination country outbound mail flows and the 5
percent discount for Priority Mail International mailpieces.

                           Table 3. Calculation of Revenue at Risk

                                                                      Amount
          Shortpaid Revenue for First-Class Mail International:      $20,490,801
          Shortpaid Revenue for Priority Mail International:           6,416,785

                           Total Revenue at Risk:                    $26,907,586

We also project the Postal Service has an additional $53.8 million in revenue at risk
over a period of 2 years. If management implements controls to detect and collect
shortpaid postage on this mail they will mitigate this risk (see Table 4).

                    Table 4. Calculation of Additional Revenue at Risk

                                                              Amount
                  Revenue at Risk:                           $26,907,586
                  Over a 2 year period:                              X2

                  Total Revenue at Risk:                     $53,815,172




                                                   13
Controls Over System for International Revenue and         CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                   14
Controls Over System for International Revenue and       CRR-AR-10-006
 Volume, Outbound and International Origin-Destination
 Information System




                                                   15
